In The
Supreme Olourt of 1i\B
Billy Daniel Raulerson, Jr.,
Applicant,
V.

Warden,
Respondent
CERTIFICATE OF SERVICE

I, David W. DeBruin, hereby certify that I am a member of the Bar of this Court,
and that I have this 6th day of November, 2019, caused a copy of the Application For An
Extension Of Time Within Which To File A Petition For Writ Of Certiorari to be served
via first-class mail postage pre-paid to:
Beth Attaway Burton
Sabrina Graham
Attorney General’s Office
Room 306
40 Capitol Square, SW
Atlanta, GA 30334
Attorneys for Respondent

0J>
David W. DeBruin

7

